No. 19-507
IN THE

Supreme Court of the United States
PUBLISHERS BUSINESS SERVICES, INC., ED
DANTUMA ENTERPRISES, INC., EDWARD
DANTUMA, DRIES DANTUMA, DIRK DANTUMA,
JEFF DANTUMA, and BRENDA SCHANG,
Petitioners,
v.
FEDERAL TRADE COMMISSION,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit
SUPPLEMENTAL BRIEF FOR PETITIONERS
PETER W. HOMER
Counsel of record
CHRISTOPHER J. KING
HOWARD S. GOLDFARB
HOMER BONNER JACOBS
1200 Four Seasons Tower
1441 Brickell Avenue
Miami, Florida 33131
(305) 350-5100
phomer@homerbonner.com
June 30, 2020

Attorneys for Petitioners

i
RULE 29.6 DISCLOSURE STATEMENT
PBS’s Rule 29.6 disclosure statement in the
petition remains accurate.

ii
RELATED PROCEEDINGS
The statement of related proceedings in the
petition remains accurate.

1
SUPPLEMENTAL BRIEF
The PBS Petitioners submit this Supplemental
Brief to address this Court’s decision last week in Liu
v. Sec. & Exch. Comm'n, 18-1501 (U.S. June 22, 2020)
and explain why that decision only increases the
urgency for this Court’s resolution of the circuit split.
1. The question presented in this case is whether
§ 13(b) of the FTC Act empowers the FTC to seek any
monetary relief when the statutory text provides only
for a limited, forward-looking injunction, and when
Congress provided the FTC an avenue to obtain
substantial monetary relief in § 19 of the FTC Act. The
Ninth Circuit in this case followed its precedent and
held the answer is yes, and that the monetary relief
available to the FTC under § 13(b) is virtually
boundless. The Seventh Circuit, in FTC v. Credit
Bureau Center, LLC, 937 F.3d 764 (7th Cir. 2019),
held the answer is no, and that an injunction under §
13(b) in fact means just an injunction.
Liu says nothing about this circuit split. It does
not discuss or concern the FTC Act or any statutory
provision similar to § 13(b). Liu deals with 15 U.S.C.
§ 78u(d)(5) of the Securities Exchange Act of 1934,
which allows the SEC to recover “any equitable relief
that may be appropriate or necessary for the benefit
of investors.” Id. The FTC Act has no similar
“equitable relief” language. The only thing close to it
is in § 19, which unlike 15 U.S.C. § 78u(d)(5)
enumerates the specific remedies the FTC has
available to it. Pet. App. 68a. The issue decided in Liu
was how far the SEC’s right to “any equitable relief”
may go in allowing monetary relief before that remedy
becomes a “penalty” as defined by this Court’s decision
in Kokesh v. SEC, 137 S.Ct. 1635, 1643-44 (2017). This
Court held the SEC’s statute permits typical equitable

2
relief, meaning orders that strip wrongdoers of their
ill-gotten gains and return the net profits to defrauded
customers. Liu, slip op. at 5-6. It does not mean
awards that exceed ill-gotten gains by failing to
deduct legitimate expenses, with possible exceptions
for companies whose entire profits resulted from
fraud. Nor does it mean joint and several liability,
with exceptions for defendants who acted in concert
with wrongdoers. Id. at 6-11.
Were this Court, as Credit Bureau suggests,
merely to grant, vacate, and remand this case in light
of Liu, see Supp. Br. 4, FTC v. Credit Bureau Ctr.,
LLC, No. 19-825, PBS would immediately face a
battery of resistance from the FTC. The FTC, which
at first advocated for deferring a certiorari decision
pending the outcome in Liu and then abandoned that
position in asking for this Court’s review, has already
signaled that it views the statutory provisions and
structures of the ‘34 Act and FTC Act as substantially
different. See BIO.7-8. The FTC is certain to argue, to
the extent it has not already, that Liu’s instruction on
the extent of equitable monetary relief under the ’34
Act has no application to the elaborate forms of
purported “equitable” relief the Ninth Circuit has
devised for § 13(b). And were the Ninth Circuit to
accept and apply Liu, PBS faces another round of
opposition over the possible exceptions Liu outlined
for the deduction of expenses and joint and several
liability. The exceptions should have no application
here—only a small part of PBS’s sales operations were
found to have violated § 5 of the FTC Act, the
individual Petitioners are in vastly different positions
in terms of their role in the conduct at issue, and none
received anywhere close to even a modest percentage
of the amount of the judgment, nearly $24 million.
Pet. 10-11; see FTC v. Publishers Bus. Services, Inc.,

3
08-CV-00620, 2011 WL 7462205, at *2 (D. Nev. July
25, 2011). But the FTC will argue Liu’s exceptions
apply nonetheless and require no adjustments to the
judgment.
Were these arguments destined to impact the
circuit split, a GVR may make sense. But the issues
have nothing to do with the circuit split. However the
Ninth Circuit decides them on a remand, the circuit
split over whether typically available equitable
remedies exist in § 13(b) would persist. And if those
typical equitable remedies are not inferable from the
text of § 13(b), as PBS maintains, Liu’s historical
analysis of equitable relief arguably does not apply. In
place of that analysis are the express statutory
remedies Congress already debated and explicitly
gave the FTC under § 19, together with important
proof elements and limitations periods. Thus, even
after Liu, this Court’s answer on the circuit split is as
urgent as ever. Granting review in this case will
decide whether and to what extent Liu is relevant to
the FTC Act.
2. PBS’s petition remains the perfect vehicle to
decide the split, as well. The Ninth Circuit’s law on §
13(b) remedies remains the most extreme version
among those circuits that have inferred monetary
remedies from § 13(b)’s unambiguous text. As PBS can
uniquely attest, the traditional discretion available to
courts of equity is nonexistent in the Ninth Circuit,
where deviation from a joint and several award of
gross revenue or even customer losses is reversible
error. See FTC v. Publishers Bus. Serv’s, Inc., 540 Fed.
Appx. 555, 556–57 (9th Cir. 2013). The Respondents
in Credit Bureau contend this Court should deny the
petition in that case outright, as the Seventh Circuit’s
reasoning has supposedly been affirmed by Liu. Supp.

4
Br. 3, Credit Bureau, No. 19-825. It is not apparent
how that could be, since the questions presented and
the statutory schemes in the two cases are
substantially different. This Court should review the
circuit split under any circumstance. However, the
FTC’s petition in Credit Bureau, coming months after
PBS’s, is not a better vehicle if for no other reason
than it lacks the Ninth Circuit’s starkly legislativelike decisions, which rewrote the FTC Act’s carefully
calibrated statutory remedies. The Seventh Circuit
did indeed get it right. But this Court should review
the circuit split from the Ninth Circuit, where the
lower courts’ intrusion on the legislative role in
rewriting § 13(b) is most pronounced.
AMG, the petitioner in the other case presenting
the § 13(b) question, also comes from the Ninth Circuit
and urges this Court’s review. Supp. br. 3, AMG
Capital Mgmt., LLC v. FTC, No. 19-508. AMG,
claiming to be the best vehicle, makes a cryptic
reference to the Solicitor General’s argument that this
case has a supposed “vehicle defect.” Id. at 3. But the
record and case law refute these contentions, which
mirror baseless waiver claims made by the SEC
against the petitioner in Liu. Reply Br. of Pet. 10, Liu
v. SEC, No. 18-1501. Indeed, PBS is in the same or
better position to challenge the Ninth Circuit’s
interpretation of § 13(b) vis-à-vis AMG. PBS raised
that challenge in the district court, raised it again in
the Ninth Circuit appeal below, and the Ninth Circuit
decided the issue head-on, on the merits. Pet. App. 3a.
The Solicitor General’s argument therefore poses no
obstacle to this Court’s review here. See Yee v. City of
Escondido, Cal., 503 U.S. 519, 534 (1992) (finding an
issue actually decided on the merits by an appeals
court inarguably ripe for this Court’s review).

5
CONCLUSION
This Court should grant PBS’s petition for a writ
of certiorari.
Respectfully submitted,
PETER W. HOMER
Counsel of record
CHRISTOPHER J. KING
HOWARD S. GOLDFARB
HOMER BONNER JACOBS
1200 Four Seasons Tower
1441 Brickell Avenue
Miami, Florida 33131
(305) 350-5100
phomer@homerbonner.com
Attorneys for Petitioners
June 30, 2020

